No.
_______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________
KENNETH SCOTT GORDON,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent
_______________________________________
On Petition for Writ of Certiorari to the
Ninth Circuit Court of Appeals
_______________________________________
PETITION FOR WRIT OF CERTIORARI

VERNA WEFALD
65 North Raymond Avenue, Suite 320
Pasadena, California 91103
Telephone: 626-577-2658
Facsimile: 626-685-2562
Email: verna@vernawefald.com
Counsel of Record

QUESTION PRESENTED
A criminal defense attorney has a duty to provide vigorous advocacy.
Strickland v. Washington, 466 U.S. 668, 688 (1984). “The right to the effective
assistance of counsel is thus the right of the accused to require the prosecution’s
case to survive the crucible of meaningful adversarial testing.” United States v.
Cronic, 466 U.S. 648, 655 (1984). The question presented is this:
Should a certificate of appealability issue because reasonable jurists
would debate whether a criminal defendant was deprived of the effective
assistance of appellate counsel when she failed to file a reply brief, waived oral
argument, and refused to file a petition for rehearing or certiorari even though
the Ninth Circuit held the defendant’s Fourth Amendment claim was a “close
call” and a third judge would have reversed but for a decision that was clearly
distinguishable?
RELATED PROCEEDINGS
United States District Court, District of Hawaii
United States v. Gordon, CR-11-479-JMS
United States v. Gordon, 895 F.Supp.2d 1011 (2012)
Ninth Circuit Court of Appeals
United States v. Gordon, Ninth Circuit Nos. 13-10463; 18-17202;
and 20-15820
i

TABLE OF CONTENTS
OPINION BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A.

Procedural History . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

B.

The Ninth Circuit found the Fourth Amendment issue
to be a “close call”. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
A COA SHOULD ISSUE AS REASONABLE JURISTS WOULD DEBATE
WHETHER THE SIXTH AMENDMENT WAS SATISFIED WHEN
APPELLATE COUNSEL DID NO MORE THAN FILE AN OPENING BRIEF
IN A MERITORIOUS CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
A.

Standard for granting COA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

B.

A criminal defense attorney has a duty to act as an advocate and require
the prosecution’s case to survive the crucible of meaningful adversarial
testing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

C.

A petitioner must show both deficient performance
and prejudice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

D.

The Ninth Circuit’s downplaying of the importance of handcuffs warranted
rehearing en banc . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

E.

A cert petition would not have been frivolous . . . . . . . . . . . . . . . . . . . . 18

F.

By waiving oral argument before the appellate court had even decided
whether it was unnecessary, appellate counsel failed to require the
prosecution’s case to survive meaningful adversarial testing. . . . . . . . 19
ii

G.

Appellate counsel’s failure to file a reply brief was
deficient performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

H.

Had appellate counsel done more than just file the opening brief, there is
a reasonable probability of a different result . . . . . . . . . . . . . . . . . . . . . 23

I.

A COA must be granted because the issue of whether appellate counsel
was ineffective is debatable among jurists of reason. . . . . . . . . . . . . . . 27

CONCLUSION
Appendix A
Order denying certificate of appealability, filed July 13, 2020
Appendix B
Order denying 2255 motion, filed March 27, 2020
Appendix C
Memorandum decision, filed December 13, 2019
Appendix D
Order denying 2255 motion but granting COA, filed October 29, 2018
Appendix E
2255 motion and memorandum, filed May 22, 2018
Appendix F
Memorandum decision, filed July 24, 2017

iii

TABLE OF AUTHORITIES
CASES
Anders v. California, 386 U.S. 738 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Arizona v. Gant, 556 U.S. 332 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Buck v. Davis,___ U.S. ___, 137 S.Ct. 759, 197 L.Ed.2d 1 . . . . . . . . . . . . . 11, 28
Chimel nor New York v. Belton, 453 U.S. 454 (1981). . . . . . . . . . . . . . . . . 14, 18
Chimel v. California, 395 U.S. 752 (1969) . . . . . . . . . . . . . . . . . . . . . . . . passim
Cuyler v. Sullivan, 446 U.S. 335 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Hohn v. United States, 524 U.S. 236 (1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Powell v. Alabama, 287 U.S. 45 (1932) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Slack v. McDaniel, 529 U.S. 473 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Strickland v. Washington, 466 U.S. 668 (1984) . . . . . . . . . . . . . . . 12, 13, 19, 27
United States v. Burnett, 698 F.2d 1038 (9th Cir. 1983) . . . . . . . . . . . . . . . . . 16
United States v. Camou, 773 F.3d 92 (9th Cir. 2014) . . . . . . . . . . . . . . . . . 9, 10
United States v. Cook, 808 F.3d 1195 (9th Cir. 2015) . . . . . . . . . . . . . . . passim
United States v. Cronic, 466 U.S. 648 (1984) . . . . . . . . . . . . . . . . . . . . . . . 12, 19
United States v. Eric B., 86 F.3d 869 (9th Cir. 1996). . . . . . . . . . . . . . . . . . . . 20
United States v. Gordon, 895 F.Supp.2d 1011 (2012) . . . . . . . . . . . . . . . . 6, 7, 8
United States v. Knapp, 917 F.3d 1161 (10th Cir. 2019) . . . . . 23, 24, 25, 26, 27
United States v. Leo, 792 F.3d 742 (7th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 26
iv

United States v. Nohara, 3 F.3d 1239 (9th Cir. 1993) . . . . . . . . . . . 9, 21, 22, 27
United States v. Passaro, 624 F.2d 938 (9th Cir. 1980) . . . . . . . . . . . . . . . . . . 10
United States v. Robinson, 414 U.S. 218 (1973) . . . . . . . . . . . . . . . . . . . . . . . . 25
United States v. Sanders, 994 F.2d 200 (9th Cir. 1993). . . . . . . . . . . . . . . 16, 17
United States v. Shakir, 616 F.3d 315 (3rd Cir. 2010). . . . . . . . . . . . . . . . . . . 17
United States v. Smith, 389 F.3d 944 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 9

STATUTES
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. §1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. §2255 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2253(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 11

v

No.
_______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________
KENNETH SCOTT GORDON,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent
_______________________________________
PETITION FOR WRIT OF CERTIORARI

Petitioner Kenneth Scott Gordon respectfully prays that a writ of
certiorari issue to review the order of the United States Court of Appeals for
the Ninth Circuit denying a certificate of appealability (“COA”), filed on July
13, 2020. The order is unpublished.
OPINION BELOW
On July 13, 2020, the Court of Appeals denied a COA to appeal
the denial of his 2255 motion. (Appendix A.)

1

JURISDICTION
On July 13, 2020, the Court of Appeals denied a COA. (Appendix
A.) Jurisdiction of this Court is invoked under 28 U.S.C. §1254(1) and Hohn
v. United States, 524 U.S. 236 (1998). This petition is due for filing on
December 10, 2020. Order of March 19, 2020. Jurisdiction existed in the
District Court pursuant to 28 U.S.C. §2255 and in the Ninth Circuit Court of
Appeals under 28 U.S.C. §1291.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment (pertinent part)
“No person shall” .... “be deprived of life, liberty, or property
without due process of law ....”
Sixth Amendment (pertinent part)
“In all criminal prosecutions, the accused shall ... have the
assistance of counsel for his defense.”
28 U.S.C. § 2253(c)
(c) (1) Unless a circuit justice or judge issues a certificate of
appealability, an appeal may not be taken to the court of appeals from–
(B) the final order in a proceeding under section 2255
[28 USCS § 2255].
(2) A certificate of appealability may issue under
paragraph (1) only if the applicant has made a
substantial showing of the denial of a constitutional
right.
2

STATEMENT OF THE CASE
A.

Procedural history
On August 8, 2013, Petitioner was sentenced to 164 months after

being convicted by a jury for methamphetamine trafficking. (CR 226, 227.)1
On January 20, 2016, after the guidelines were reduced, the district court
resentenced Petitioner to 151 months. (CR 261.)
On direct appeal, Petitioner’s first attorney filed an Anders2 brief.
The Ninth Circuit granted counsel’s request to withdraw and appointed new
counsel who was to address, inter alia, whether the pretrial motion to
suppress was properly denied. (2 ER 258-259.)3 New appellate counsel filed
an opening brief but wrote to the court that she would not be filing a reply
brief. She also waived oral argument. The motion to suppress will be
discussed in detail below.
On July 24, 2017, the Ninth Circuit affirmed Petitioner’s
conviction in a memorandum decision but said the suppression issue was a
“close call.” (Appendix F at 3.) Judge Paez concurred but wrote that he

1

“CR” stands for Clerk’s Record.

2

Anders v. California, 386 U.S. 738 (1967) (there are no non-frivolous
issues on appeal).
3

“ER stands for the Excerpts of Record filed in Case No. 18-17202.
3

would have reversed but for United States v. Cook, 808 F.3d 1195 (9th Cir.
2015) which he believed was controlling. (Appendix F at 5.)
Counsel did not file a petition for rehearing or rehearing en banc.
She also told Petitioner that if he wanted to file a petition for writ of
certiorari she would have to move to withdraw because it would be frivolous.
(1 ER 68.) Petitioner filed the cert petition pro se, which was denied.
On May 22, 2018, Petitioner timely filed a 2255 motion alleging,
inter alia, that appellate counsel was ineffective for failing to file a reply brief,
waiving oral argument, failing to file a petition for rehearing, and failing to
file a cert petition. (Appendix E.) The district court held that that it did not
have jurisdiction to rule on whether appellate counsel was ineffective because
only the appellate court could grant any relief. However, the court issued a
COA. (Appendix D.)
On appeal, Petitioner argued that the district court had
jurisdiction to rule on appellate counsel’s ineffectiveness and requested a
remand for an evidentiary hearing.

The government conceded that the

district court had jurisdiction but also argued that appellate counsel was not
ineffective. In the reply brief, petitioner argued in detail why appellate
counsel was ineffective and failed to act as an advocate.

4

On December 13, 2019, the Ninth Circuit vacated the order
denying the 2255 motion and remanded. It held that the district court had
jurisdiction to rule on the claim because it could grant relief by vacating
Petitioner’s judgment of conviction. (Appendix C.)
On March 27, 2020, the district court denied the 2255 motion and
held that appellate counsel was not ineffective. Petitioner had not shown
that oral argument would have changed the outcome; a reply brief is not
essential for appellate review; there is no constitutional right to counsel when
seeking a petition for rehearing; and it was unlikely that en banc review
would have been successful. (Appendix B.)
On appeal, Petitioner argued that a COA must issue because
reasonable jurists could debate whether counsel in the direct appeal of
Gordon’s criminal conviction was ineffective under the Sixth Amendment
when she failed to file a reply brief, waived oral argument, and failed to file a
petition for rehearing en banc even though this Court said the Fourth
Amendment issue was a “close call” The Ninth Circuit denied a COA.
(Appendix A.)

5

B.

The Ninth Circuit found the Fourth Amendment issue to be a
“close call”
Prior to trial, Petitioner filed a motion to suppress the contents of

a duffel bag and his wallet that were seized from him when he was arrested.
After an evidentiary hearing, the motion was denied in a published decision.
United States v. Gordon, 895 F.Supp.2d 1011 (2012).
Drug trafficker and daily methamphetamine user Richelle Higa
was arrested on May 13, 2011, with four pounds of methamphetamine. She
told DEA agents that she bought the drugs from codefendant Tyrone Fair.
Couriers would be used to collect payment for the narcotics. Higa would hide
the cash in boxes of macadamia nut candy. A courier was expected to arrive
at Higa’s residence on May 14, 2011, at 10:30 a.m. Agents set up surveillance
and planted paper in the macadamia nut boxes to simulate the weight of
currency. Id. at 1014.
When Petitioner arrived at Higa’s apartment complex carrying a
black duffel bag, he entered the apartment but stayed for only 30 seconds. He
was videotaped inside the apartment taking the box of candy and placing it in
the duffel bag. The duffel bag was hanging by a strap from his shoulder when
he left the apartment. Ibid.

6

As Petitioner approached his parked car, four officers detained
him. Officer Marumoto grabbed Petitioner’s right arm and another officer
grabbed his left arm. The black duffel bag was removed from Petitioner’s
shoulder and he was handcuffed. “After Petitioner was arrested and placed
in handcuffs” Officer Rumschlag “immediately placed the bag on the ground
and opened it.” Id. at 1015. After confirming that the duffel bag contained
the macadamia nut boxes Petitioner was taken to a law enforcement van.
Ibid.
“As for timing, the removal of the bag from Petitioner, the arrest
and handcuffing, and the search of the bag occurred contemporaneously” or
“almost instantaneously” according to Rumschlag. Ibid. “As for proximity,
the bag was within Petitioner’s reaching distance at the time,” as Rumschlag
said it was “right behind where Petitioner was standing.” Ibid.
It was undisputed that: “Petitioner was under the custody and
control of law enforcement when Agent Rumschlag initially searched the bag.
Petitioner offered no resistance to the arrest, and was surrounded by several
officers.” Ibid. There were no other persons at the scene deemed to be
potential threats and no weapons were either observed or found at the scene
or in the bag. Ibid. At the federal building Agent Rumschlag opened the bag,

7

conducted a more thorough search, and found the paper they had planted in
the candy box. Id. at 1016.
The district court acknowledged that warrantless searches are
per se unreasonable under the Fourth Amendment. Nevertheless, a search of
the arrestee’s person and the area within his immediate control, is
permissible incident to a lawful arrest. Id. at 1018, citing e.g. Arizona v.
Gant, 556 U.S. 332, 338 (2009) and Chimel v. California, 395 U.S. 752, 763
(1969). Such warrantless searches are justified for the “twin purposes of
finding weapons” that could be used or evidence that could be destroyed. Id.
at 1019. The court observed that “Gant tethered the legality of a search
incident to arrest to the Chimel justifications: officer safety and preservation
of evidence.” Ibid.
If there is no possibility that an arrestee could reach into the area
that law enforcement officers seek to search, both justifications
for the search-incident-t-arrest exception are absent and the rule
does not apply” .... That is, Gant refocused attention on a
suspect’s ability (or inability) to access weapons or destroy
evidence at the time a search incident to arrest is conducted.
Petitioner, 895 F.Supp.2d at 1019.
The court denied the motion to suppress finding that “even if
Petitioner was under control of law enforcement officers, and even if he was
immediately handcuffed, the bag was next to or near Petitioner when agent
Rumschlag observed its contents.” Id. at 1020. Even if a suspect has been
8

secured there was no bright line rule in assessing the lawfulness of the
search. Id. citing United States v. Shakir, 616 F3d 315, 319(3rd Cir. 2010) (“If
Gant is construed to forbid all container searches after a suspect is
handcuffed or held by police it would effectively eliminate a major element of
the search-incident-to-arrest doctrine.”)
The district court also found that United States v. Nohara, 3 F.3d
1239, 1243 (9th Cir. 1993) was binding as “even after Gant, courts continue to
follow Nohara and similar caselaw involving handcuffed defendants.”
Petitioner, at 1021 (citations omitted). If Gant prohibited a search incident to
arrest whenever a suspect is handcuffed, this would expose the police to an
unreasonable risk of harm. Therefore, under the totality of circumstances,
the search of the bag was lawful. Ibid.
The memorandum decision affirmed Petitioner’s conviction but
observed that the suppression issue was a “close call.” (Appendix F at 4.)
First, the district court properly denied Petitioner’s motion to
suppress evidence from the duffel bag and wallet. Law
enforcement agents searched he duffel bag within seconds of
Petitioner being handcuffed. United States v. Camou, 773 F.3d
92, 938 (9th Cir. 2014) (internal quotation marks omitted)
(quoting United States v. Smith, 389 F.3d 944, 951 (9th Cir.
2004)0; see also United States v. Cook, 808 F.3d 1195, 1997, 11991200 (9th Cir. 2015) (upholding search of a backpack after a
suspect was handcuffed where there were reasonable security
concerns); United States v. Nohara, 3 F.3d 1239, 1243 (9th Cir.
1993) (upholding search of a bag two to three minutes after the
suspect was handcuffed and seated in an apartment hallway).
9

Unlike the suspect in Arizona v. Gant, Petitioner was “within
reaching distance” of the duffel bag when it was first searched.
556 U.S. 332, 351 (2009). Although a close call, the initial
search was lawful. Further, the district court’s conclusion that
the duffel bag remained in the uninterrupted control of law
enforcement was not clearly erroneous. Petitioner points to no
evidence that anyone other than law enforcement had access to
the duffel bag after he was arrested. As to the wallet, Petitioner
stipulated that officers would testify the wallet was taken from
his person at the time of his arrest. He also stipulated that the
wallet was then transported to DEA headquarters. The district
court properly relied on these stipulations in finding the search of
the wallet was lawful. See United States v. Passaro, 624 F.2d
938, 944 (9th Cir. 1980).
(Exhibit 1 at 3-4.)
Judge Paez wrote a concurring decision stating:
I agree with the majority in full. I write separately only to clarify
that I would reverse the denial of the motion to suppress, in
accordance with Arizona v. Gant, 556 U.S. 332 (2009) and our
decision in United States v. Camou, 773 F.3d 932 (9th Cir. 2014),
if not for United States v. Cook, 808 F.3d 1195 (9th Cir. 2015). On
similar facts as here, the court in Cook, concluded that the dual
purposes of the search-incident-to-arrest doctrine were
sufficiently served to uphold the search. Although, in light of
Gant and Camou, I would not have concluded the same, I view
Cook as controlling here.
(Appendix F a 5.)

10

REASONS FOR GRANTING THE WRIT
A COA SHOULD ISSUE AS REASONABLE JURISTS WOULD
DEBATE WHETHER THE SIXTH AMENDMENT WAS SATISFIED
WHEN APPELLATE COUNSEL DID NO MORE THAN FILE AN
OPENING BRIEF IN A MERITORIOUS CASE
As noted above, the district court denied the 2255 motion finding
that reply briefs, oral argument, and petitions for rehearing are essentially
irrelevant. (Appendix B.)
A.

Standard for granting COA
To obtain a COA under § 2253(c), the petitioner must make a

substantial showing of a denial of a constitutional right such that reasonable
jurists could debate whether the issue should have been resolved differently.
Slack v. McDaniel, 529 U.S. 473, 484 (2000). The threshold COA inquiry is
not “coextensive with a merits analysis” but asks only if the decision is
debatable among jurists of reason. Buck v. Davis,___ U.S. ___, 137 S.Ct. 759,
774, 197 L.Ed.2d 1, citing Miller-El v. Cockrell, 537 U. S. 322, 327, 348
(2017).
This is the perfect case to illustrate why the mere filing of an
opening brief does not satisfy appellate counsel’s obligation to provide
vigorous advocacy under the Fifth and Sixth Amendments.

11

B.

A criminal defense attorney has a duty to act as an advocate
and require the prosecution’s case to survive the crucible of
meaningful adversarial testing
At the outset it is important to stress that a criminal defense

attorney’s first duty is to provide vigorous advocacy.
Representation of a criminal defendant entails certain basic
duties. Counsel's function is to assist the defendant, and hence
counsel owes the client a duty of loyalty, a duty to avoid conflicts
of interest. (Citation.) From counsel's function as assistant to the
defendant derive the overarching duty to advocate the
defendant's cause and the more particular duties to consult with
the defendant on important decisions and to keep the defendant
informed of important developments in the course of the
prosecution. Counsel also has a duty to bring to bear such skill
and knowledge as will render the trial a reliable adversarial
testing process.
Strickland v. Washington, 466 U.S. 668, 688 (1984), citing Cuyler v. Sullivan,
446 U.S. 335, 346 (1980) and Powell v. Alabama, 287 U.S. 45, 68-69 (1932).
The criminal defense attorney’s “overriding mission” is “vigorous
advocacy of the defendant’s cause.” Strickland, at 689. “The right to the
effective assistance of counsel is thus the right of the accused to require the
prosecution’s case to survive the crucible of meaningful adversarial testing.”
United States v. Cronic, 466 U.S. 648, 655 (1984).

12

C.

A petitioner must show both deficient performance and
prejudice
Ineffective assistance of counsel claims are governed by the

standards set forth in Strickland, 466 U.S. at 687, which require a showing of
both deficient performance by the attorney and resulting prejudice to the
defense. “The defendant must show that counsel’s performance fell below an
objective standard of reasonableness.” Id. at 688. The defendant “must
overcome the presumption that, under the circumstances, the challenged
action ‘might be considered sound trial strategy.’” Id. at 689.
As to prejudice, the defendant must show that there is a
“reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different. A reasonable probability
is a probability sufficient to undermine confidence in the outcome.” Strickland
v. Washington, 466 U.S. at 694. “The benchmark for judging any claim of
ineffectiveness must be whether counsel’s conduct so undermined the proper
functioning of the adversarial process that the trial cannot be relied on as
having produced a just result.” Id. at 686.

13

D.

The Ninth Circuit’s downplaying of the importance of handcuffs
warranted rehearing en banc.
In Chimel v. California, 395 U.S. 752, 753 (1969), this Court

discussed the chaotic state of the search-incident-to-arrest jurisprudence
before holding that the warrantless search of Chimel’s entire three bedroom
house, garage, and attic, after he was arrested for burglary, violated the
Fourth Amendment. The Court clarified that after an arrest, “it is
reasonable for the arresting officer to search the person arrested in order to
remove any weapons” he might use to “resist arrest or effect his escape.” Id.
at 763. It is also reasonable to search the arrestee’s person for evidence that
might be concealed or destroyed. Ibid. “The search here went far beyond the
petitioner’s person and the area from which he might have obtained either a
weapon or something that could have been used as evidence against him.” Id.
at 769.
Forty years later, in Arizona v. Gant, 556 U.S. 332 (2009), this
Court upheld the Arizona Supreme Court’s finding that a search was
unconstitutional. Gant was arrested for driving with a suspended license,
“handcuffed, and locked in the back of a patrol car,” when police officers
searched his car where they discovered cocaine in the pocket of a jacket.
Gant, at 335. The Arizona Supreme Court held that neither Chimel nor New
14

York v. Belton, 453 U.S. 454 (1981) justified the warrantless search because
“Gant could not have accessed his car to retrieve weapons or evidence at the
time of the search.” Gant at 335.
This Court reiterated that under Chimel, a search incident to
arrest may only include the area within the arrestee’s “immediate control”
“from which he might gain possession of a weapon or destructible evidence.”
Gant, at 339. “If there is no possibility that an arrestee could reach into the
area that law enforcement officers seek to search, both justifications for the
search-incident-to-arrest exception are absent and the rule does not apply.”
Ibid.
Post-Gant, the Ninth Circuit upheld the warrantless search of a
backpack, “which was right next to Cook,” two minutes after he had been
arrested for drugs. Cook, 808 F.3d at 1197. After Cook was ordered on the
ground at gunpoint and then handcuffed, a crowd gathered. Even though
there were three officers near Cook and three by Cook’s car, the officers were
“concerned that additional, unidentified coconspirators or others might
interfere if they continued to attract attention.” Ibid. Officers found no
weapons in the backpack. They “moved Cook and the backpack to a more
secluded restaurant parking lot a few blocks away.” Ibid. There, officers did a
more thorough second search and found ziplock bags containing drugs. Ibid.
15

On appeal, Cook challenged only the initial search, recognizing
that if that search was valid, the second warrantless search was permitted “so
long as the backpack remained in the legitimate uninterrupted possession of
the police.” Cook at 1198-1199, relying on United States v. Burnett, 698 F.2d
1038, 1049 (9th Cir. 1983). The Ninth Circuit agreed with Cook that his
position face down on the ground with his hands cuffed behind his back was a
“highly relevant fact in determining whether the search was justified.” Id. at
1199. However, the search was both quick and cursory as well as spatially
and temporally incident to the arrest. Id. at 1200.
The Ninth Circuit distinguished Gant who was arrested for
driving with a suspended license, while Cook was arrested for felony drug
offenses. Also Gant was in a locked patrol car while Cook’s backpack was
within reaching distance. The fact that Cook was handcuffed was significant
but not dispositive because “handcuffs do fail on occasion.” Id. citing United
States v. Sanders, 994 F.2d 200, 209 (9th Cir. 1993). “We cannot say here
that there was no reasonable possibility that Cook could break free and reach
for a backpack next to him.” Cook, at 1200.
Not only did Sanders predate Gant by 16 years, but the Ninth
Circuit failed to mention that the search for weapons was on Sanders’ person,

16

not a backpack that had been taken from him; and a gun was found in
Sanders’ right jacket pocket. Sanders at 202.
Cook, 808 F.3d at 1200, also cited United States v. Shakir, 616
F.3d 315, 321 (3rd Cir. 2010) which upheld a warrantless search when Shakir
was handcuffed and two officers were also holding him down. Police searched
a duffel bag at Shakir’s feet. They were concerned that his accomplices were
nearby. Here again, Shakir relied on Sanders to emphasize that “handcuffs
are not fail-safe.” 616 F.3d at 320.4
At a minimum, appellate counsel should have filed a petition for
rehearing en banc urging the Ninth Circuit to review whether Cook conflicted
with Gant. Gant did not even remotely indicate that handcuffs were devices
that might fail. Nor was there any suggestion in Petitioner’s case that the
handcuffs could have failed. Moreover, the duffel bag was on the ground
behind him when he was handcuffed.
Cook was also distinguishable for other reasons. When officers
searched Cook’s backpack, two firearms had already been recovered from
Cook’s co-conspirator’s house; Cook was arrested in front of that house; and a

4

These cases also beg the question as to why officers would leave a bag
right next to a handcuffed defendant if they were concerned about officer safety,
handcuff failure, and the destruction of evidence. It is more than likely that the
officers have no concerns about their safety or destruction of evidence and are
just too lazy to get a warrant.
17

crowd had gathered. Thus, “under the totality of circumstances, we conclude
that the search of Cook’s backpack was reasonable and valid incident to
arrest.” Cook at 200. By contrast, there were no similar concerns when
Petitioner was arrested. No one else was around and he was compliant.
Officer safety was simply not an issue.
E.

A cert petition would not have been frivolous
Downplaying the significance of handcuffs would also have been

grounds for a non-frivolous cert petition.5 As Chimel and Gant demonstrate,
the Supreme Court often updates and clarifies Fourth Amendment law. Gant
scrutinized both Chimel and Belton at length. Appellate counsel should have
filed a cert petition on grounds that the memorandum decision conflicted with
Gant.
Rather than act as an advocate, appellate counsel actually
notified this Court that Gordon’s intention to file a petition for writ of
certiorari violated Supreme Court rules, necessitating her withdrawal. (2 ER
396.) But of course, if the memorandum decision was a “close call” and the
concurring judge would have reversed under Gant but for Cook, a cert

5

Under Rule 10(c), the Supreme Court will consider granting a cert
petition when “a United States court of appeals has decided an important
question of federal law that has not been, but should be, settled by this Court,
or has decided an important federal question in a way that conXicts with
relevant decisions of this Court.”
18

petition would not have been frivolous. Although it is true that cert petitions
are rarely granted, Gordon’s chances were not helped by his own lawyer
telling the court that his petition was frivolous.
F.

By waiving oral argument before the appellate court had even
decided whether it was unnecessary, appellate counsel failed to
require the prosecution’s case to survive meaningful
adversarial testing
By waiving oral argument before the Ninth Circuit had even

decided whether it was unnecessary appellate counsel in effect told the Court
that she thought Petitioner’s appeal was a loser.

This is hardly the vigorous

advocacy envisioned by Strickland and Cronic.
Federal judges frequently extol the virtues of oral argument. For
example, Eighth Circuit judge Myron Bright wrote in a law review article:
In my opinion, oral argument is an essential component of the
decisionmaking process, and plays an important role in assisting
the appellate judge in reaching a decision ....
The argument can isolate and clarify the core issues. [Vague
points, complex points, and points that were simply overlooked]
may become evident during oral argument. Most significantly,
oral argument provides the attorney with his or her only
opportunity to face and speak directly to the judges about the
case and the contentions made by counsel.
Chief Justice William Rehnquist stated, during a penal discussion
on oral advocacy:

19

You could write hundreds of pages of briefs, and, you are still
never absolutely sure that the judge is focused on exactly what
you want him to focus on in that brief. Right there at the time of
oral argument you know that you do have an opportunity to
engage or get into the judge’s mental process.
The ability to face the court directly provides the litigant with a
better opportunity to inform the judges of the litigant’s position
and the impact that a particular decision will have on the
individual parties. Cold, printed words convey little in regard to
the sense of urgency under which a party may be operating.
Bright, “The Power of the Spoken Word: In Defense of Oral Argument,” 72
Iowa L.Rev. 35 at *36 (1986).
It cannot be overemphasized that if the memorandum decision
found the Fourth Amendment issue to be a “close call” and if the concurring
judge would have reversed but for Cook, it is more than likely that the panel
did indeed wish to hear oral argument. Zealous advocacy at oral argument
might well have tipped the balance in Petitioner’s favor.
G.

Appellate counsel’s failure to file a reply brief was deficient
performance
Not addressing something in a reply brief may be seen as a

concession. See e.g. United States v. Eric B., 86 F.3d 869, 879, n.21 (9th Cir.
1996) (“It may be inferred that counsel for appellant concedes that this right
of privacy argument is suspect, since appellant's reply brief dropped all
reference to this issue.”)

20

Appellate counsel wrote Petitioner a letter stating that she did
not file a reply because the government responded “using the same case law.”
(1 ER 59.) This was inaccurate, however, as the government relied on
Nohara (2 ER 355) which the memorandum decision also relied on (2 ER 391)
but which was not mentioned in the opening brief.
The government wrote: “The district court concluded that even if
Petitioner was handcuffed shortly before Agent Rumschlag actually made his
initial search of the bag, the court would still uphold the search as incident to
his arrest.” (2 ER 355, citing United States v. Nohara, 3 F.3d 1239 (9th Cir.
1993). Because appellate counsel did not cite Nohara in the opening brief,
vigorous advocacy warranted that it be addressed in a reply brief.
It cannot be overemphasized that Nohara was decided 16 years
before Gant. The primary issue in that case was whether Nohara had a
reasonable expectation of privacy in the hallway outside his apartment in a
high security building. 3 F.2d at 1240. Agents had gone to Nohara’s
apartment and knocked on the door. When he opened the door, another agent
saw that Nohara was holding a glass pipe with white residue, recognizable as
methamphetamine. Nohara was also holding a black bag. Nohara was
arrested and handcuffed. While he was seated on a chair in the hallway

21

agents searched the black bag and found an ounce of methamphetamine. Id.
at 1240-1241.
The Ninth Circuit held that Nohara did not have a reasonable
expectation of privacy in the apartment hallway. The search of the black bag
was justified as incident to an arrest. The bag was in his immediate control
because Nohara was holding it when he opened the door. The court found
that although the bag was taken from Nohara and he was handcuffed this
was of no moment. Id. at 1243.
Nohara, however, cannot be reconciled with Gant. Once the bag
was taken from him and he was handcuffed it goes without saying that the
bag was no longer in his immediate control. He could not possibly have
reached for a weapon or destroyed any evidence in the bag.
The memorandum decision also cited Nohara as “upholding
search of a backpack after a suspect was handcuffed where there were
reasonable security concerns.” (2 ER 391.) It is highly likely that the panel
relied on Nohara because appellate counsel failed to argue how this case was
no longer valid after Gant.

22

H.

Had appellate counsel done more than just file the opening
brief, there is a reasonable probability of a different result
Given that the Ninth Circuit found the issue to be a “close call,”

and Judge Paez would have reversed but for Cook, a petition for rehearing en
banc might well have been granted and the decision reversed. At a minimum,
there was more than a reasonable probability of a different result. Certainly
confidence in the outcome is undermined.
The Tenth Circuit, on similar facts, recently ruled that a
suppression motion should have been granted. (Exhibit at 4 at 164-169, citing
United States v. Knapp, 917 F.3d 1161 (10th Cir. 2019). Knapp called police
to report a theft in a grocery store. After police responded and caught the
thief, they determined that Knapp had an outstanding warrant. They found
her in the driver’s seat of parked pickup truck. When they told her they had
to arrest her, she “voluntarily retrieved her pursue from the back seat.” Id. at
1163. Back inside the grocery store, Knapp asked a friend to take her purse
so she would not have to take it to jail. Suspicious, the officer refused to let
the friend take it or let Knapp leave it in her truck. Ibid.
After Knapp refused to let officers search her purse, they cuffed
her hands behind her back. Id. at 1164. The officers walked Knapp to the
patrol car. Knapp stood in front of the hood facing officer Foutch. Officer
23

Parker placed the purse on the hood of the patrol car. Knapp stood near the
bumper of the patrol car about three feet from the purse which was on the
hood near the windshield. When Foutch told Knapp she would be committing
a felony if she brought drugs into a jail, she responded that there was a pistol
in the purse. At that point the officers searched the purse and found the
pistol. Three officers were present when this was done. Ibid.
Knapp was charged with being a felon in possession of a firearm.
She moved to suppress the firearm and her statement. The government
argued the search was incident to a lawful arrest. Ibid.

The district

court said the case presented a “difficult choice” but reasoned that since
Knapp was three feet away from the purse she could have gained access.
Ibid.
On appeal Knapp argued that the search was not incident to
arrest because the police chose to put Knapp in proximity to her purse, but, in
any event, she could not have accessed the purse’s contents at the time of the
search. Ibid. The Tenth Circuit reversed,6 finding that searches within an

6

The Assistant Federal Public Defender, who represented Knapp on
appeal, filed a reply brief and appeared at oral argument. See Tenth Circuit
docket for Case No. 18-8031. On remand to the district court, the government
dismissed the indictment with prejudice. (CR 109, Case No. 17 CR 207, D.
Wyoming.)
24

arrestee’s immediate control must be justified on a case-by-case basis by the
need to disarm or to preserve evidence. Id. at 1165.
The court first held that the search was not of Knapp’s person,
such as a weapon concealed on her clothing or pockets. Id. at 1166. By
contrast, “visible containers in an arrestee’s hand such as Ms. Knapp’s purse
are best considered to be within the area of an arrestee’s immediate control”
and thus governed by Chimel v. California, 395 U.S. 752 (1969). Knapp, 917
F.3d at 1167. Because the purse was not concealed under or within her
clothing and was easily separable from her person, the arresting officers had
no authority to search its contents pursuant to United States v. Robinson, 414
U.S. 218, 234 (1973) (when probable cause to arrest, officer authorized to
search arrestee’s person for weapons and a cigarette package containing
heroin). Knapp, at 1168.
Turning to the question of whether the search was justified by the
need to preserve evidence or the need to disarm Knapp, the court noted that
the principles of Arizona v. Gant, 556 U.S. 332, 344 (2009) apply to more than
just automobiles. Knapp, 917 U.S. at 1168. Applying both Gant and Chimel,
the court held it was “unreasonable to believe Ms. Knapp could have gained
possession of a weapon or destructible evidence within her purse at the time
of the search.” Ibid.
25

The court looked to the following factors: (1) whether an arrestee
is handcuffed; (2) the relative number of arrestees and officers present; (3) the
relative positions of the arrestees, officers, and the place to be searched; and
(4) the ease or difficulty with which the arrestee could gain access to the
searched area. Id. at 1168-1169.
Here, not only were Ms. Knapp’s hands cuffed behind her back,
Officer Foutch was next to her, and two other officers were
nearby. Moreover, the purse was closed and three to four feet
behind her, and officers had maintained exclusive possession of it
since placing her in handcuffs.
Knapp, 917 F.3d at 1169.
The court relied on United States v. Leo, 792 F.3d 742, 750 (7th
Cir. 2015) which held that a backpack was not in the defendant’s immediate
control after an investigatory stop when his hands were cuffed behind his
back and the backpack was no longer in the defendant’s possession. The
Seventh Circuit reasoned it was “inconceivable that” the defendant “would
have been able to lunge for the bag, unzip it, and grab the gun inside.” Ibid.
The Knapp decision is on point to Gordon’s case. Although it
came down two years after the disposition of Gordon’s appeal and it is not a
Ninth Circuit decision, it demonstrates that had Gordon been afforded the
vigorous advocacy he was constitutionally entitled to, there is a reasonable
probability this Court’s decision would have been different. Certainly the
26

Knapp decision undermines confidence in the outcome. Strickland, 466 U.S.
at 694.
I.

A COA must be granted because the issue of whether appellate
counsel was ineffective is debatable among jurists of reason.
As discussed above, there is a serious question as to whether this

Court’s memorandum decision denying relief on the Fourth Amendment
claim was correct. Nohara and Cook are easily shown to be inconsistent with
Gant. Knapp is directly on point and illustrates why the memorandum
decision was wrong.
To fulfill her duty to act as an advocate, appellate counsel should
have filed a reply brief to point out why Nohara was no longer valid after
Gant. To provide vigorous advocacy she should not have waived oral
argument, particularly when she failed to file a reply brief. And, when this
Court said the issue was a “close call,” and when Judge Paez would have
reversed but for Cook, the refusal to file a petition for rehearing en banc to
point out why Cook cannot be reconciled with Gant was deficient
performance. Appellate counsel failed utterly to require the prosecution’s
case to survive meaningful adversarial testing. Had Petitioner been afforded
the zealous advocacy to which he was entitled under the Sixth Amendment,
there is a reasonable probability of a different result. Strickland, Cronic.
27

The district court’s decision finding that appellate counsel was
not ineffective is debatable among jurists of reason. Buck v. Davis. Not only
was the memorandum decision wrongly decided, but the district court failed
to recognize that reply briefs, oral argument, and petitions for rehearing and
certiorari, are important weapons in the criminal defense attorney’s arsenal
to wage the adversarial battle that the Sixth Amendment expects will take
place.
The lower courts are in dire need of guidance as to what appellate
counsel must do to provide the vigorous advocacy to ensure that the
prosecution’s case survives the crucible of meaningful adversarial testing.
CONCLUSION
For the reasons expressed above, petitioner respectfully requests
that a writ of certiorari issue to review the order of the Ninth Circuit Court of
Appeals.
Date: November 29, 2020

Respectfully submitted,

VERNA WEFALD
Counsel of Record

28

